No. __-_________
IN THE SUPREME COURT OF THE UNITED STATES

BINH NGUYEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Binh Nguyen, pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), asks leave to file
the accompanying Petition for Writ of Certiorari to the United States Court of Appeals for the Fifth
Circuit without prepayment of costs and to proceed in forma pauperis. Petitioner was represented
by counsel appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United
States District Court for the Northern District of Texas and on appeal to the United States Court of
Appeals for the Fifth Circuit.
Respectfully submitted this the 27th day of July, 2020.

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

/s/ Christopher Allen Curtis
CHRISTOPHER ALLEN CURTIS**
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2757 Fax
Counsel of Record

